                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

Case Number: A04-120073                                                            Page 1 of 1



           In the course of a proactive review, it was noted that a ganteel had not provided
    adequate ;upporting documentation for the expenditure of $            budgeted for participant
    support under a grant.2 In response to a follow-up query, the grantee provided documentation
    establishing that it sought and obtained permission from NSF to reallocate those hnds.
    Accordingly, this case is closed
